INACTIVE OBLIGATIONS
Federal Highway Administration

  Report Number: FI-2006-011
Date Issued: November 14, 2005
           U.S. Department of
                                                         Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Inactive Obligations                             Date:    November 14, 2005
           Federal Highway Administration
           Report No. FI-2006-011
  From:    Theodore P. Alves                                               Reply to
                                                                           Attn. of:   JA-20
           Principal Assistant Inspector General
            for Auditing and Evaluation
    To:    Acting Federal Highway Administrator

           This report presents the results of our audit of Federal Highway Administration
           (FHWA) inactive obligations. We initiated this audit in response to a request by
           the House Committee on Appropriations. 1

           Last year, Congress provided the 50 states, the District of Columbia,
           U.S. territories, and Indian nations 2 nearly $35 billion in Federal-aid grants to help
           build and maintain our Nation’s highway system. Recipients of Federal-aid
           obligate those funds under grant agreements to cover the cost of transportation
           projects. This obligation creates a liability on the part of the Federal Government
           for the payment of the appropriated funds. When obligated amounts exceed
           project costs, the excess obligations are no longer needed for the purpose for
           which they were obligated and should be released and made available to fund
           active transportation projects. One indication that funds may no longer be needed
           is when projects become inactive, at which time FHWA should assess the
           continued need for these funds. An obligation is considered inactive when there
           has been no expenditure activity on the grant project for a year or more.

           FHWA has recognized that in today’s tight fiscal environment it needs to take a
           more active role in monitoring states’ use of Federal-aid funds, with a goal of
           reducing the amount of Federal dollars kept idle year after year on transportation
           projects.


           1
               House Committee Report No. 108-671, accompanying the Fiscal Year 2005 Appropriations for the
               Department of Transportation.
           2
               These entities are collectively referred to as “the 52 states” in this report.
                                                                                                 2


The House Committee on Appropriations requested this audit based on concerns
over the hundreds of millions of dollars of unneeded obligations that we identified
in our March 2004 report. 3 We reported that this situation continued despite
recommendations the Inspector General has made over the last 8 years (see prior
recommendations on pages 11 and 12). The Committee specifically requested that
we review records in 10 states that did not receive the largest amounts of Federal-
aid dollars. The Committee wanted to know if FHWA had corrected the problems
and whether the problems we identified also existed in states that received lesser
amounts of Federal-aid funds.

Our audit objectives were to (1) estimate the amount of unneeded obligations
Agency-wide as of December 31, 2004, that could be released and used on active
transportation projects and (2) determine the extent to which FHWA has
implemented our prior audit recommendations on improving processes used to
identify and release unneeded obligations. This audit did not include high-priority
or other earmarked projects because Federal-aid funds for these are
congressionally mandated and cannot be released and made available for use on
other transportation projects.

To complete the audit, we randomly selected 10 states not previously reviewed
and 4 states previously reviewed (Table 2 on page 7). In the 14 states, we
identified about $1 billion in obligations meeting our selection criteria of a
$500,000 4 minimum unexpended project balance and no expenditure activity in a
year. Due to the large number of selected obligations in 3 of the 14 states, we did
not review the entire $1 billion in obligations. In California, New York, and
Virginia, we identified subsamples for review. Overall, we performed an in-depth
review of 411 obligations with unexpended balances totaling $600 million. Using
a statistical sampling plan, we projected our results nationwide.

RESULTS IN BRIEF
Based on our in-depth review of records in 14 states this year, we found
$258 million of unneeded Federal-aid funds, and we estimated that, in total, about
$661 million in idle funds existed nationwide. This year, for the first time, FHWA
worked aggressively with the states to ensure that unneeded funds were
deobligated. As a result, according to FHWA officials, the 52 states actually
released a total of $757 million of idle Federal-aid funds and made them available
for use on active transportation projects. The amount of Federal-aid dollars


3
    OIG Report FI-2004-039, “Inactive Obligations, Federal Highway Administration,” March 31, 2004.
    OIG reports can be accessed at www.oig.dot.gov.
4
    In March 2004, we recommended that FHWA lower the dollar threshold for reviewing inactive
    obligations from $1 million to $500,000.
                                                                                                  3


released this year is consistent with our estimate of the amount of Federal-aid
dollars that were unneeded nationwide. 5

This represents a significant achievement compared to prior-year efforts. We
attribute this year’s success to FHWA management’s taking the lead to implement
processes that significantly changed the way FHWA and the states identify and
release unneeded obligations kept idle on transportation projects. This year,
FHWA followed through aggressively to work with the states to provide more
effective oversight of Federal-aid funds. The actions FHWA took this year are
responsive to our prior recommendations. However, to ensure that this progress is
sustained in the future, FHWA must continue working with the states to
institutionalize processes that identify and release unneeded obligations.

In the past, FHWA was reluctant to mandate that states release unneeded and idle
Federal-aid funds on transportation projects because officials believed that the
action would harm the relationships developed over years of working with the
states to build the Nation’s highway system. Today, FHWA and state officials
recognize that in times of tight fiscal constraints, their relationship must change if
they are to become true stewards of Federal-aid and state transportation funds.

The unneeded funds had remained idle primarily because they were kept on
projects (1) that were completed, canceled, or reduced in scope and no longer
needed for the purpose for which they were obligated or (2) for several years
before project construction contracts were awarded. The following are examples
of transportation projects with unneeded funds.

      •   By 1998, one state had obligated about $16 million in Federal-aid funds to
          construct additional lanes on a major road; the work was completed in
          November 2001. The state agreed that the unexpended balance of
          $1.7 million was not needed to complete the project. During our visit, the
          state was awaiting the project close-out audit. After our visit, the state
          deobligated the $1.7 million and made it available for use on other projects.
          The unneeded funds had remained idle for 4 years.

      •   In one state, about $4.4 million in Federal-aid funds had been obligated by
          1996 for the rehabilitation of a viaduct. Although the project was
          completed in 1999, state records were not closed out and remaining unused
          funds of about $676,000 had not been deobligated. During our visit, state
          officials deobligated the unexpended amount and made it available to fund
          other transportation projects. The unneeded funds had remained idle for
          about 6 years.

5
    Our estimate provided a 95 percent likelihood that the actual amount of unneeded obligations was
    between $440 million and $775 million.
                                                                                                 4


      •   About $2.8 million in Federal-aid funds was obligated by one state in
          April 2002 for a road rehabilitation project. The funds remained obligated
          until our audit in February 2005, when the state canceled the project and
          deobligated the funds. State officials can now use the $2.8 million on other
          transportation projects. These unneeded funds remained idle for 3 years.

      •   Three states released a total of $54 million in obligations on 23 projects
          awaiting the start of scheduled construction.        One state obligated
          $3.5 million in 2001 to replace the pavement of a major road. The
          construction work was delayed about 5 years and rescheduled to start in
          early 2006. These funds were released and made available for use on active
          transportation projects. The FHWA Division manager stated that the
          release of these funds would not affect completion of this project when
          construction was ready to start.

Before her departure earlier this year, the FHWA Administrator championed
efforts to change this situation. She initiated actions to improve the reviews of
inactive obligations and ensure that unneeded funds were released. Specifically:

      • On February 28, 2005, FHWA implemented new policy and procedures on
        how to identify and validate the need for inactive obligations under its
        Financial Integrity Review and Evaluation (FIRE) Program. FIRE is
        designed to improve processes in major FHWA areas, including validating
        the need for inactive obligations. The Administrator officially issued FIRE
        on April 26, 2005.

      • On March 16, 2005, the Secretary of Transportation addressed the FHWA
        Division Administrators’ spring meeting and reminded them that FHWA’s
        oversight of grants needed improvement. He encouraged them to be more
        fiscally accountable and to exercise stronger oversight of how states spend
        Federal-aid dollars. FHWA has agreed to make necessary changes in the
        way it does business with the states.

      • On May 10, 2005, in testimony before Congress, the FHWA Administrator
        committed FHWA to ensuring that Federal dollars would be spent wisely
        and accounted for.

      • On July 11, 2005, FHWA issued a Notice of Proposed Rulemaking
        soliciting comments on proposed amendments to its regulation governing
        when unneeded obligations should be released (Title 23 CFR Part 630). 6
        The proposed amendments are designed to ensure that unneeded

6
    The Notice of Proposed Rulemaking would change provisions of Title 23 CFR Part 630, “Project
    Authorization and Agreements.” Title 23 CFR Part 630 is referred to as Title 23 in this report.
                                                                                5


      obligations are released in a timely manner. The amendments would
      require that states identify project completion dates in their grant
      agreements. Those dates would prompt the release of unneeded funds by
      the state within 90 days of project completion. FHWA anticipates
      finalizing the amendments by early 2006.

Efforts to work with the states to improve reviews of inactive obligations and
release unneeded funds also continued after the FHWA Administrator’s departure.
On August 26, 2005, the Acting FHWA Administrator endorsed our prior
recommendations and identified actions to fully implement them. According to
FHWA officials, states nationwide released $757 million of unneeded obligations
by September 30, 2005.          FHWA Division Administrators certified by
October 31, 2005, that these funds had been released.

From the outset, FHWA faced a major challenge getting 52 FHWA Division
Offices and state departments of transportation to agree to change how they
conducted business. The new FIRE program and the amendments to Title 23
provide a good start. FHWA still needs to follow through to ensure full
implementation of FIRE by all Division Offices and to expedite finalizing
amendments to Title 23. In addition, FHWA needs to follow through on
implementing the recommendations we made in March 2004: (1) define the data
that are needed to track the national performance goal of reducing unneeded
obligations, (2) evaluate the need to further lower the dollar threshold for
reviewing inactive obligations, and (3) hold Division Administrators accountable
by incorporating in their 2006 performance standards a requirement that they
identify and release unneeded obligations.

FINDINGS

States Kept Over a Half-Billion Dollars in Federal-aid Funds Idle
on Inactive Projects That Could Have Been Released and Used
on Active Projects
Over the past 8 years, we performed in-depth reviews of state records and found
hundreds of millions of dollars of unneeded Federal-aid funds on transportation
projects. Until this current review, we found that FHWA’s actions had minimal
effect on reducing the amount of unneeded funds kept on transportation projects
from year to year. This year, we estimated, based on a statistically valid sample,
that the 52 states kept about $661 million ($607 million of unneeded obligations
and $54 million of premature obligations) in Federal-aid funds idle on
transportation projects. The results are summarized in Table 1.
                                                                               6


 Table 1. Idle Federal Funds That Could Be Put to Better Use on
                 Active Transportation Projects
 Reason for Idle Funds       Actual Cost       Projected Cost      Cost Savings
                          Savings in 14 States    Savings          Nationwide
                               (Millions)        (Millions)         (Millions)
 Unneeded Obligations           $ 204              $ 403             $ 607
 Premature Obligations          $ 54               $    0            $ 54
  Total                         $ 258              $ 403             $ 661

Based on our in-depth review of records in 14 randomly selected FHWA Division
and state offices, we estimated that states could immediately release obligations
totaling $661 million and make these funds available for use on active state
transportation projects. This includes the $258 million we found in the 14 states
and another $403 million in projected unneeded funds nationwide.

Using the Fiscal Management Information System (FMIS)—FHWA’s grants
management system—we verified that by September 30, 2005, FHWA approved
the release of $239 million (92.7 percent of the $258 million) of unneeded
obligations in the 14 states. The $258 million includes $204 million of unneeded
obligations in 14 states and $54 million of premature obligations in 3 of the
14 states. Table 2 summarizes the unneeded obligations by state and dollar
amount. The premature obligations are discussed on page 9. We projected that
states would release another $403 million if FHWA Division Offices performed
the same level of review at all states that we performed at the 14 states.

FHWA Division Offices completed reviews of inactive obligations in 2005 and
reported $757 million of unneeded obligations had actually been released by the
states. We are 95 percent confident that the amount of unneeded obligations
ranged between $440 million and $775 million. The total Federal-aid funds
released this year are within this range and meet our expectation of unneeded and
idle funds nationwide.

To evaluate the adequacy of processes used to support the total dollars actually
released, FHWA reviewed implementation of FIRE in states that completed their
inactive obligation reviews by June 30, 2005. They randomly selected 12 states
(3 states we visited and 9 new states) and performed a follow-up review of state
records. As a result of that review, FHWA recommended providing training on
the types of documents required to support the need for an inactive obligation.
                                                                                                7


 Table 2. States Reviewed Sorted By Unneeded Obligations on
       Transportation Projects, as of December 31, 2004
  Item       States Visited           Universe            Reviewed          Unneeded Obligations
                                     (Millions)           (Millions)         Millions     No. of
                                                                                        Projects
            Not Previously
            Visited
    1       Minnesota                $ 27               $ 27                $   21         10
    2       Illinois                 $ 33               $ 33                $   14         19
    3       Florida                  $ 24               $ 24                $   12          9
    4       Indiana                  $ 64               $ 64                $   11         15
    5       Kentucky                 $ 17               $ 17                $   11          9
    6       South Carolina           $ 42               $ 42                $    9          8
    7       Massachusetts            $ 68               $ 68                $    6          9
    8       Ohio                     $ 26               $ 26                $    3          3
    9       North Carolina           $ 15               $ 15                $    2          5
   10       New Mexico               $ 13               $ 13                $    0          0
              Subtotal               $ 328              $ 328               $   91         87

            Previously
            Visited
   11       District of
            Columbia                 $    66            $ 66                $ 41           15
   12       California               $   307            $ 59                $ 31           20
   13       Virginia                 $   131            $ 80                $ 28           34
   14       New York                 $   120            $ 67                $ 13           17
             Subtotal                $   625            $ 272               $ 113          86

               Total*                $ 953              $ 600               $ 204         173
* Amounts may not add up exactly to Subtotals and Totals due to rounding.



A detailed summary of the $204 million of unneeded obligations by state and
project status can be found in Exhibit B. Discussions of completed, canceled, and
reduced-scope transportation projects with unneeded and idle Federal-aid funds
follow, sorted by project status.

Completed Transportation Projects with Unneeded Obligations
The bulk of the unneeded obligations occurred when projects were completed and
unexpended balances were not immediately released. We found unneeded
obligations of about $127 million (62 percent of $204 million) on 130 completed
                                                                                   8


transportation projects in 13 of the 14 states. The following examples highlight
completed projects with obligations that should have been released sooner.

   •   By 1998, one state had obligated about $16 million in Federal-aid funds to
       construct additional lanes on a major road; the work was completed in
       November 2001. The state agreed that the unexpended balance of
       $1.7 million was not needed to complete the project. During our visit, the
       state was awaiting the project close-out audit. After our visit, the state
       deobligated the $1.7 million. The unneeded funds remained idle for
       4 years.

   •   In 1993, a state obligated just over $5.1 million in Federal-aid funds for the
       right-of-way phase of a project to extend and relocate a major road. The
       right-of-way phase was completed and cost $2.5 million, leaving an
       unexpended balance of $2.6 million in Federal-aid funds. The state has
       deobligated those funds.

   •   In one state, about $4.4 million in Federal-aid funds had been obligated by
       1996 for the rehabilitation of a viaduct. Although the project was
       completed in 1999, records were not closed out and the remaining unused
       funds of about $676,000 had not been deobligated. During our visit, state
       officials deobligated the unexpended amount and made it available to fund
       other transportation projects. The unneeded funds remained idle for about
       6 years.

To keep this situation from continuing, two FHWA Division Offices took
aggressive steps to get states to immediately release the unneeded balances
remaining on completed projects. One division told the state that it would take
prompt action to deobligate unneeded funds remaining on completed projects
within 30 days of project completion and documented this practice in written
policy and procedures. A second FHWA Division Office informally requested
that states begin releasing unneeded funds 6 months after project completion. This
practice of designating a specific time frame for releasing the unneeded funds
proved effective. The second Division Office released about $193 million of
unneeded obligations this year. We found that the other 12 divisions we visited
relied on the states to determine when to release any unneeded obligations on
completed projects.

Canceled Transportation Projects With Unneeded Obligations
We found unneeded obligations totaling over $73 million on 37 canceled projects
in 7 of the 14 states visited. Three examples follow.

   •   About $2.8 million in Federal-aid funds was obligated by one state in April
       2002 for a road rehabilitation project. The funds remained obligated until
                                                                                 9


       our audit in February 2005, when the state canceled the project and
       deobligated the funds. State officials can now use the $2.8 million on other
       transportation projects. These unneeded funds remained idle for 3 years.

   •   In June 2003, one state obligated $2.2 million in Federal-aid funds for a
       bridge painting project. In February 2005 during our visit, the state
       canceled the project. State officials agreed that problems that developed
       with the contractor could not be resolved. The $2.2 million was
       deobligated and will be made available for use on other active projects.

   •   In 1999, one state obligated Federal-aid funds of about $806,000 for the
       right-of-way phase of a major road project. In September 2001, about
       $2,000 was spent, but the project never progressed to the construction
       phase. The $804,000 remained idle for about 4 years before the state
       deobligated the unexpended funds and made them available for use on
       other transportation projects.

Reduced-Scope Transportation Projects with Unneeded Obligations
We found about $3.4 million of unneeded obligations on 6 reduced-scope
transportation projects in 4 of the 14 states visited. For example:

   •   By January 2001, one state had obligated Federal-aid funds totaling about
       $29.1 million for a pavement rehabilitation project on a major highway.
       The state spent about $27.3 million on the project, which left an
       unexpended balance of $1.8 million as of December 31, 2004. The state
       agreed the scope of the project had been reduced by $1.6 million and
       released the unexpended balance during the audit.

   •   In December 2003, one state obligated $1.5 million in Federal-aid funds for
       the enhancement of a transportation system. During our visit, the state
       agreed that the scope of the project needed to be reduced by $1 million
       because the contract limited the dollar amount of Federal participation to
       $500,000. The state deobligated the $1 million during the audit.

Premature Obligation of Project Construction
States could make many more Federal-aid dollars available for active projects
each year by obligating funds closer to the start of project construction. We found
that three states kept Federal-aid funds idle from year to year because funds were
obligated several years before project construction contracts were awarded.
Transportation projects start with a planning and design phase, move to a right-of-
way and utility phase, and end with construction. In one state, funds were
obligated for project construction at the start of the project planning and design
phase. As a result, obligations were made long before they are needed to fund
                                                                                   10


construction. During our audit, the 3 states released about $54 million in
obligations on 23 projects awaiting the start of scheduled construction and made
them available immediately for use on other active transportation projects. FHWA
Division managers stated that releasing premature obligations would not affect the
completion of projects. They assured us that funds would become available when
the time came to begin project construction.

Funding New Transportation Projects
We sampled 411 projects in the 14 states visited, and initial Federal funding for
these projects approached $1.2 billion. At an average Federal funding level of
$2.9 million per project, the estimated $661 million in idle obligations could be
released and used on roughly 230 transportation projects throughout the Nation.
States can use the released funds on other active projects or to start new projects in
accordance with Federal-aid procedures. States are required to maintain an
extensive repertory of approved projects ready to be started.

States, in cooperation with metropolitan planning organizations (MPOs) and in
consultation with non-metropolitan local officials, are required to develop a
Statewide Transportation Improvement Program (STIP) that contains projects or
project phases to be funded through the Federal-aid Highway Program and the
Federal Transit Act.      Incorporated into the STIP are the metropolitian
Transportation Improvement Programs (TIPs) that are developed by MPOs in
cooperation with the state and public transportation operators. The STIP is
approved by the state Governor, as well as by the FHWA Division Administrator
and the Federal Transit Administration’s Regional Administrator.

Before the enactment of the Safe, Accountable, Flexible, Efficient Transportation
Equity Act: A Legacy for Users (SAFETEA-LU), STIPs and TIPs were required
to contain projects over a 3-year period and be updated at least every 2 years.
With the enactment of SAFETEA-LU, these documents now must contain projects
over a 4-year period and be updated every 4 years.

We reviewed the STIP for one of the 14 states and determined that $11 million of
idle Federal-aid funds in that state could be released and used sooner to start the
right-of-way and utility phases on two new projects or the construction phase of
one new project to expand major highways.
                                                                                             11


Until This Year, FHWA Was Slow To Implement Prior
Recommendations and Establish an Effective Process To
Ensure the Release of Unneeded Funds
The release of hundreds of millions of unneeded funds on transportation projects
has been slowed by FHWA’s delay in implementing our prior recommendations.
We made a series of recommendations in four reports since 1997, culminating in
seven recommendations in March 2004, to correct this problem. However, FHWA
delayed implementing these recommendations until this year, when it issued a new
program, FIRE, and proposed amending Title 23 provisions to stipulate when
states should release unneeded obligations.

Status of FHWA Efforts To Implement Prior Recommendations
1997. In a 1997 Management Advisory report, 7 we recommended that the FHWA
Administrator accurately account for unexpended obligations on all completed and
inactive projects and develop performance goals for managing excess funds.
FHWA responded by issuing a report in 1999, “Project Funds Management,”
recommending that FHWA Division and state offices consider using eight best
practices for managing project funds, including identifying and ensuring the
prompt release of unneeded obligations on completed, canceled, or reduced-scope
transportation projects. Divisions have not been successful in getting the states to
implement the best practices because states viewed them as recommendations, not
requirements, and opted not to implement them.

1999. We recommended that the Department issue policy requiring Operating
Administrations perform annual reviews of their inactive obligations to identify,
monitor, and close completed projects. FHWA responded to the Department by
issuing policy on validating inactive projects that required an annual review of
projects with no expenditure activity for 1 year or more and with an unexpended
balance of $1 million or greater. According to FHWA policy, states were to
release obligated funds that FHWA believed were not needed to complete projects
and use them on active state projects.

2001. We made three recommendations to the FHWA Chief Financial Officer
(CFO) and Chief, Federal-aid Financial Management Division, to
(1) independently review states’ records to identify unneeded funds, (2) stress to
the states the importance of implementing best practices, and (3) develop a
national performance goal and measures on reducing inactive obligations to be
incorporated into the FHWA performance plan. FHWA agreed with each
recommendation, pledging action by the end of 2001. In response to our
recommendations, FHWA issued a directive in December 2001 encouraging

7
    OIG Report TR-1998-045, “Management Advisory on Unexpended Obligations on Complete and
    Inactive Highway Projects, Federal Highway Administration,” December 11, 1997.
                                                                                 12


Division Administrators to sample state records when performing inactive
obligation reviews. However, states continue not to implement the eight best
practices, and while FHWA established goals and measures in 2000 through 2003,
it established no targets to assess whether the goals were met. No goals and
measures existed for 2004 and 2005. FHWA established a goal and measures for
2006 but still needs to establish a target.

2004. We redirected our recommendations from the CFO to the FHWA
Administrator. We made seven recommendations, which included to implement
policy and procedures requiring that Division Offices work closely with states to
identify and release unneeded funds and include a performance goal and measure
in FHWA’s performance plan. We further recommended that the Administrator
hold FHWA Division Administrators accountable to work closely with states in
identifying unneeded obligations and that FHWA lower the dollar threshold for
reviews of inactive obligations from $1 million to $500,000.

2005. This year, the Acting FHWA Administrator committed to implement our
March 2004 recommendations.               FHWA began implementing two
recommendations by issuing policy and procedures under its new FIRE program
to require divisions to work with states in validating the need for inactive
obligations and lowering the dollar threshold for performing reviews to $500,000.
Further, FHWA committed to including FIRE requirements in Division
Administrators’ performance standards beginning in FY 2006. Officials told us
they are currently defining data that will be used to track the reduction of
unneeded obligations.

CONCLUSION
Over the past 8 years, we have made recommendations to FHWA for improving
the processes it uses to identify and release unneeded funds kept on transportation
projects. We recognize that FHWA has taken a much more active role this year in
working with the states to identify and release unneeded funds on completed,
canceled, and reduced-scope projects. We further recognize that this effort
presents a significant challenge, especially since 52 FHWA Division Offices and
states must embrace this effort to ensure full success. The FHWA and state
partnership role has existed for more than a half century, so a change in culture of
this magnitude is no simple task. Management must provide continuing attention
and support to ensure that the needed changes take hold. We applaud the Acting
Administrator’s aggressive actions to address this issue this year and his planned
actions to ensure that the changes are fully implemented. Because FHWA has
committed to fully implement our prior recommendations, we are not making new
recommendations in this report.
                                                                             13


MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
We provided FHWA with a draft of this report on October 31, 2005. The acting
FHWA Administrator provided a written response on November 4, 2005. In his
response, he commented that FHWA will continue to monitor inactive obligations
in the future and aggressively work to keep them to a minimum. To ensure that
the progress FHWA made this year is sustained in the future, FHWA must
continue working with the states to institutionalize processes to identify and
release unneeded obligations.

We appreciate the courtesies and cooperation of FHWA representatives during this
audit. If you have any questions concerning this report, please call me at
(202) 366-1992, or Earl C. Hedges, Program Director, at (410) 962-3612.

                                       #

cc: Martin Gertel, M-1
    Cynthia Thornton, HAIM-13
                                                                                14




EXHIBIT A. SCOPE AND METHODOLOGY
FHWA had recorded grants obligations with states of about $37 billion as of
December 31, 2004. The bulk of this amount went to the states to fund
investments in highway infrastructure and safety programs. Using FMIS, we
identified 34,756 obligations totaling $4.5 billion that had had no expenditure
activity for 12 months.        About $2 billion of this represented about
1,500 obligations with unexpended balances of $500,000 and greater. We used a
$500,000 threshold to review the inactive obligations for this audit because our
March 2004 report found unneeded obligations on transportation projects with
unexpended balances of less than $1 million (the threshold at that time).

To assess the extent to which FHWA implemented our prior audit
recommendations, we met with Federal-aid managers at FHWA Headquarters and
reviewed the FHWA order on FIRE, implemented on February 28, 2005.

For site visits, we randomly selected the following 10 states from those not
previously visited: Florida, Illinois, Indiana, Kentucky, Massachusetts, Minnesota,
New Mexico, North Carolina, Ohio, and South Carolina. In these 10 states, we
reviewed 229 projects with inactive obligation balances totaling about
$328 million, which represented all inactive obligations with unexpended balances
of $500,000 and greater.

We randomly selected the following four states from those in our 2004 audit for
follow-up visits: California, the District of Columbia, New York, and Virginia.
We did not review all inactive obligations with unexpended balances of $500,000
and greater in three of the four states due to the large number of inactive
obligations exceeding that threshold. For these four states, we reviewed a total of
182 randomly selected projects, with inactive obligation balances totaling
$272 million. We projected the results in the 14 sample states to the Nation as a
whole in accordance with the sampling plan. We also followed up to determine
whether inactive obligations identified as unneeded in the previous audit had been
released and used on other transportation projects.

In the 14 states visited, we requested that FHWA Division Office financial
managers provide support to justify the inactive obligated amounts. We also
visited state offices; interviewed project fund managers and program and
accounting officials; and reviewed obligating documents, including project files,
to evaluate the monitoring of selected projects and the use of FHWA best
practices.

We relied on FHWA’s FMIS as the primary source of automated information on
obligations and expenditure history for grant obligations. Only records for


Exhibit A. Scope and Methodology
                                                                                15


projects that were (1) not classified as earmarked, (2) had had no expenditures
since December 31, 2003, and (3) had unexpended balances of $500,000 and
greater were included in the universe. FHWA validated the earmarked projects
included in the sample. We also used FMIS to determine whether the unneeded
and idle funds were released by September 30, 2005.

We reviewed audit work performed by Clifton Gunderson, LLP, to understand
(1) internal controls over the processing and recording of grants in FHWA during
FY 2004, (2) relevant laws and regulations, (3) grants program policies and
procedures, and (4) key elements of the control environment. We also reviewed
work performed by Clifton Gunderson to understand and assess the risk of
fraudulent, improper, and abusive grant activity and computer-based controls
established over FMIS and Delphi, the Department’s financial management
system.

We identified payment activity of $100 or less recorded in FMIS during the
12-month period ended December 31, 2004, and concluded that low-dollar
payments did not preclude inactive obligations of greater than $500,000 from
appearing in the universe. Also, there was no indication of the existence of fraud
related to whether the inactive obligations reviewed represented valid liabilities.

We performed the audit from January 2005 through October 2005 in accordance
with Generally Accepted Government Auditing Standards prescribed by the
Comptroller General of the United States and included such tests as we considered
necessary to provide reasonable assurance of detecting abuse or illegal acts.




Exhibit A. Scope and Methodology
                                                                                                    16




EXHIBIT B. UNNEEDED OBLIGATIONS BY STATE AND PROJECT
STATUS, AS OF DECEMBER 31, 2004

 States Visited                Dollar      Dollar                      Dollar            Total
                              Value on    Value on                    Value on        (Thousands)
                             Completed    Canceled                   Reduced-
                              Projects    Projects                     Scope
                            (Thousands) (Thousands)                   Projects
                                                                    (Thousands)
 New States
 Minnesota                  $    21,297         $     0             $     0       $    21,297
 Illinois                   $   13,055          $ 804               $     0       $    13,859
 Florida                    $   12,057          $     0             $     0       $    12,057
 Indiana                    $    6,196          $ 5,135             $ 158         $    11,489
 Kentucky                   $    8,808          $     0             $ 2,600       $    11,408
 South Carolina             $    8,896          $     0             $ 350         $     9,246
 Massachusetts              $     5,924         $     0             $ 304         $     6,228
 Ohio                       $     1,299         $ 2,184             $     0       $     3,483
 North Carolina             $     2,228         $     0             $     0       $     2,228
 New Mexico                 $         0         $     0             $     0       $         0
   Subtotal                 $   79,761          $ 8,123             $ 3,412       $    91,296

 Prior States
 District of
 Columbia                   $    8,945          $32,115             $       0     $ 41,060
 California                 $   16,048          $15,093             $       0     $ 31,140
 Virginia                   $   15,119          $12,691             $       0     $ 27,810
 New York                   $    7,121          $ 5,433             $       0     $ 12,554
  Subtotal                  $   47,233          $65,331             $       0     $ 112,564

    Total*                  $126,994            $73,454             $ 3,412       $ 203,860
    * Amounts may not add up exactly to Subtotals and Totals due to rounding.




Exhibit B. Unneeded Obligations by State and Project Status
                                                                 17



EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


  Name                                  Title

  Earl C. Hedges                        Program Director

  Mary E. Smothers                      Project Manager

  LaKarla M. Lindsay                    Senior Auditor

  Renee C. Yancy                        Senior Auditor

  Larry B. Walker                       Auditor

  Brian G. Greene                       Auditor

  Brian J. Frist                        Analyst

  Ericka S. Harris                      Auditor

  Petra Swartzlander                    Statistician

  Kathleen A. Huycke                    Editor

  Michael P. Fruitman                   Communications Adviser




Exhibit C. Major Contributors To This Report
APPENDIX. MANAGEMENT COMMENTS                                                           18


                                                    Memorandum


Subject:   INFORMATION: Draft Report on Inactive Obligations
           FHWA Project No. 05F3013F000
                                                                         Date: November 4, 2005

                                                                         Reply to
                                                                         Attn. of:   HCF-1
From:      J. Richard Capka
           Acting Administrator


To:        Theodore P. Alves
           Principal Assistant Inspector General
            for Auditing and Evaluation


           Thank you for the opportunity to comment on the draft report. Our staffs have

           jointly worked on this issue for several years and I am happy the lingering

           issues of the past have been resolved. The Federal Highway Administration

           will continue to monitor inactive obligations in the future and we will

           aggressively work to keep them minimized. Thank you for the assistance you

           have provided to help us reach this conclusion.




Appendix. Management Comments
